MATTHEW RODRIQUEZ
Acting Attorney General

State of California
DEPARTMENT OF JUSTICE
600 WEST BROADWAY, SUITE 1800
SAN DIEGO, CA 92101
P.O. BOX 85266
SAN DIEGO, CA 92186-5266

Public: (619) 738-9000
Telephone: (619) 738-9693
Facsimile: (619) 645-2012
Helen.Hong@doj.ca.gov

April 12, 2021
Hon. Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
RE:

South Bay United Pentecostal Church, et al. v. Gavin Newsom, et al., No. 20-746

Dear Mr. Harris:
On November 24, 2020, South Bay United Pentecostal Church and Bishop Arthur
Hodges III filed a petition for a writ of certiorari before judgment in the above-captioned matter,
seeking review of an order in which the district court had denied their request for a preliminary
injunction with respect to California’s then-operative public health restrictions on indoor
worship. Petitioners later asked this Court to construe that petition as one seeking review of a
January 2021 judgment of the court of appeals. The case is currently scheduled for the
conference of April 23. The purpose of this letter is to notify the Court that the State of
California amended its policies on April 12 to state that, “effective immediately, location and
capacity limits on places of worship are not mandatory but are strongly recommended.” See
State of California, Industry Guidance to Reduce Risk, https://covid19.ca.gov/industry-guidance/
(drop-down menu “Places of worship and cultural ceremonies—updated April 12, 2021”) (last
visited Apr. 12, 2021) (attached hereto). Petitioners are thus no longer subject to the mandatory
percentage-capacity limits of 25% and 50% that previously governed attendance at places of
worship.
I would appreciate it if you would circulate this letter to the Members of the Court.
Sincerely,
s/ Helen H. Hong
HELEN H. HONG
Deputy Solicitor General
For
Attachment.

MATTHEW RODRIQUEZ
Acting Attorney General

Industry guidance to reduce risk - Coronavirus COVID-19 Response

1 of 10

https://covid19.ca.gov/industry-guidance/

Search this site

Select language

Menu

COVID19.CA.GOV
Your Actions Save Lives

Industry guidance to reduce
risk
Last updated April 12, 2021 at 12:28 PM

Every business needs to support a safe, clean, and
low-risk environment. If you own or manage a
business, �nd the guidance for your industry and
follow it to protect your workers and customers.

On this page:
5 Find out if your business can open
5 Protect your workers
5 Ventilation for indoor operations
5 Temporary structures for outdoor operations
5 Industry guidance (for speci�c industries)

Find out if your business can
open
4/12/2021, 3:50 PM

Industry guidance to reduce risk - Coronavirus COVID-19 Response

2 of 10

https://covid19.ca.gov/industry-guidance/

California has a Blueprint for a Safer Economy with revised criteria for
tightening and loosening restrictions for businesses and activities. Check
your county’s status in the Blueprint for a Safer Economy to see whether
your business can open, and if there are restrictions and safety
modi�cations that your business must follow.

Steps for reopening your business safely

Protect your workers
Prevent worker exposure to COVID-19
Employers are required to follow CalOSHA’s emergency temporary
standards  to prevent exposure to COVID-19 in the workplace.
Visit the Employers  page of saferatwork.covid19.ca.gov to learn more
about workplace requirements like:
Safety procedures
Training for workers on infection prevention
What to do in case of an infection or outbreak
Review how to respond to COVID-19 cases
prevent further spread.

PDF

in your workplace and

Provide masks
Wearing a mask or face covering is required statewide in public or
common spaces. Employers must provide face coverings to workers or
reimburse workers for the reasonable cost of obtaining them. Find all
requirements and exceptions to these rules in the industry guidance for
your business. For more about masks, check CDPH’s guidance for the
use of face coverings .

4/12/2021, 3:50 PM

Industry guidance to reduce risk - Coronavirus COVID-19 Response

3 of 10

https://covid19.ca.gov/industry-guidance/

Paid leave and other bene�ts
It’s important that employees with COVID-19 know to stay home. Your
sick leave policies need to support that. Make sure your workers know
about paid leave and other options available to them.
See a comparison of COVID-19 paid leave  available for workers
affected by COVID-19.
Check the chart of bene�ts  available to workers impacted by
COVID-19.

Childcare and family-friendly practices
Workers need safe, reliable, and affordable childcare options during the
COVID-19 response.
Use the family-friendly practices for employers

PDF

to develop work-

life balance policies that include childcare supports and workplace
�exibility.
Make sure your workers know about support for working families
PDF

.

Ventilation for indoor
operations
All businesses permitted to operate indoors must follow the CDPH
interim guidance for ventilation, �ltration, and air quality . This guidance
includes practical steps your business can take to promote better
ventilation, �ltration, and air quality indoors to reduce the spread of
COVID-19.

4/12/2021, 3:50 PM

Industry guidance to reduce risk - Coronavirus COVID-19 Response

4 of 10

https://covid19.ca.gov/industry-guidance/

Temporary structures for
outdoor operations
Restaurants and other businesses operating outdoors may wish to
enclose outdoor temporary structures like tents and canopies to contain
heat, avoid rain, or provide shade. Follow the CDPH guidance for
temporary structures  to reduce the risk of COVID-19 transmission.

Industry guidance
See guidance in other languages

 Agriculture and livestock
 Amusement parks and theme parks – updated
April 2, 2021
 Auto dealerships
 Cardrooms and racetracks – updated
September 10, 2020
 Childcare
 Cohorts for children and youth in supervised
settings – updated September 4, 2020
 Communications infrastructure

4/12/2021, 3:50 PM

Industry guidance to reduce risk - Coronavirus COVID-19 Response

5 of 10

https://covid19.ca.gov/industry-guidance/

 Construction
 Day camps
 Delivery services
 Energy and utilities
 Family friendly practices for employers
 Food packing
 Gyms and �tness centers – updated January
26, 2021
 Hair salons and barbershops – updated
October 20, 2020
 Higher education – updated April 9, 2020
 Hotels, lodging, and short-term lodging
rentals – updated January 25, 2021
 Life sciences
 Limited services – updated January 26, 2021
 Live events and performances – updated April
2, 2021

4/12/2021, 3:50 PM

Industry guidance to reduce risk - Coronavirus COVID-19 Response

6 of 10

https://covid19.ca.gov/industry-guidance/

 Logistics and warehousing facilities
 Manufacturing
 Mining and logging
 Movie theaters and family entertainment
centers – updated April 2, 2021
 Museums, zoos, and aquariums – updated
October 20, 2020
 Music, �lm, and TV production – updated
February 22, 2021
 O�ce workspaces
 Outdoor recreation, including campgrounds,
playgrounds, and ski resorts – updated
December 3, 2020
 Personal care services – updated October 20,
2020
 Places of worship and cultural ceremonies –
updated April 12, 2021
In response to recent judicial rulings, effective immediately,
location and capacity limits on places of worship are not
mandatory but are strongly recommended. The linked guidance
is in the process of being updated. All other restrictions in the
guidance remain in place.
Tier status

4/12/2021, 3:50 PM

Industry guidance to reduce risk - Coronavirus COVID-19 Response

7 of 10

https://covid19.ca.gov/industry-guidance/

Widespread (purple)
Outdoor or indoor with modi�cations
Indoor activities are strongly discouraged and should be limited to
25% of capacity

Substantial (red)
Indoor with modi�cations
Indoor activities should be limited to 25% of capacity

Moderate (orange)
Indoor with modi�cations
Indoor activities should be limited to 50% of capacity

Minimal (yellow)
Indoor with modi�cations
Indoor activities should be limited to 50% of capacity

Singing, chanting, and playing wind instruments
Singing, chanting, playing wind instruments, and similar activities
are permitted subject to the restrictions below. Workers or
volunteers who are providing vocal, instrumental, or other music
for a service or ceremony but sit or stand separately from the
visitors or congregants are “performers.” Additional or alternative
modi�cations for performances may be required by the
forthcoming Live Performances guidance.
For outdoor activities:
Performers must follow the guidance for outdoor live events and
performances.
Use of face coverings is mandatory except when actively eating

4/12/2021, 3:50 PM

Industry guidance to reduce risk - Coronavirus COVID-19 Response

8 of 10

https://covid19.ca.gov/industry-guidance/

and/or drinking. Exemptions identi�ed in CDPH’s guidance for the
use of face coverings  are allowed.
Discourage audience members from singing, chanting, and similar
practices that may increase the likelihood of transmission from
contaminated exhaled droplets and aerosols.

Widespread (purple)
Performers singing, chanting, playing a wind instrument, or engaging
in similar activities indoors must wear face coverings at all times.
Such performers must maintain at least 12 of physical distance
from other performers and 24 feet of physical distance from visitors
or congregants.
During a single service or ceremony before a live audience, no more
than 10 performers may sing, chant, play wind instruments, or
engage in similar activities.
Performers are counted toward the occupancy capacity limit.
Performers are strongly recommended to obtain a negative PCR test
within 72 hours prior to the service.
Houses of worship should improve ventilation as much as possible.

Substantial (red), Moderate (orange), and Minimal (yellow)
Performers singing, chanting, playing a wind instrument, or engaging
in similar activities indoors must wear face coverings at all times.
Performers must maintain physical distancing from congregants or
spectators and other performers.
Performers are counted toward the occupancy capacity limit.
Performers are strongly recommended to obtain a negative PCR test
within 72 hours prior to the service.
Houses of worship should improve ventilation as much as possible.

4/12/2021, 3:50 PM

Industry guidance to reduce risk - Coronavirus COVID-19 Response

9 of 10

https://covid19.ca.gov/industry-guidance/

Recorded performances
When making a recording without a live audience for later use at
a service or ceremony, performers may sing, chant, play wind
instruments, or engage in similar activities without face
coverings if the following conditions are met:
Each performer has taken a laboratory-based PCR diagnostic test
(i.e., not a rapid test) that yielded a negative result within 72 hours
prior to the recording session.

 Ports
 Public transit and intercity passenger rail –
updated October 20, 2020
 Real estate transaction
 Restaurants, wineries, and bars – updated
March 11, 2021
 Retail – updated February 24, 2021
 Schools – updated March 20, 2021
 Shopping centers – updated October 20, 2020
 Support for working families
 Youth and adult recreational sports – updated
April 7, 2021

4/12/2021, 3:50 PM

Industry guidance to reduce risk - Coronavirus COVID-19 Response

10 of 10

https://covid19.ca.gov/industry-guidance/

About COVID-19 restrictions
Blueprint for a Safer Economy
Vaccines
Industry guidance
Local info and alerts

COVID-19 hotline

1-833-422-4255
M-F 8AM-8PM, Sa-Su 8AM-5PM

CA.gov

Department of Public Health

Governor’s Newsroom

Feedback

Accessibility

Privacy Policy

Register to vote

O�cial California State Government Website

4/12/2021, 3:50 PM

